Audit Report




OIG-11-094
SAFETY AND SOUNDESS: Material Loss Review of Peoples First
Community Bank
August 25, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents


Audit Report................................................................................................. 1

Causes of Peoples First Community Bank’s Failure ............................................... 2
  Excessive Concentrations ............................................................................. 2
  Inadequate Credit Administration ................................................................... 3

OTS’s Supervision of Peoples First Community Bank ............................................                  4
  Summary of OTS’s Examinations and Enforcement Actions for Peoples First
     Examination Results ................................................................................      4
  OTS Did Not Effectively Implement New Directions Bulletin 06-14,
     Concentrations of Risk ............................................................................        5
  OTS Did Not Adequately Monitor Loan Restrictions After the February 2009
     Cease and Desist Order……………………………………………… .....................                                            6
  OTS Did Not Sufficiently Monitor Peoples First’s Use of Interest Reserves..........                          7
  OTS’s Internal Failed Bank Review Identified Area Needing Improvement ...........                            8
  OTS Implemented Prompt Corrective Action in Accordance With
     Requirements……………………………………………… ...................................                                         9

Appendices

    Appendix    1:      Objectives, Scope, and Methodology ......................................              11
    Appendix    2:      Background..........................................................................   14
    Appendix    3:      Management Response .........................................................          16
    Appendix    4:      Major Contributors to This Report ...........................................          17
    Appendix    5:      Report Distribution ................................................................   18

Abbreviations

    FDIC                Federal Deposit Insurance Corporation
    MLR                 material loss review
    MRBA                matter requiring board attention
    OCC                 Office of the Comptroller of the Currency
    OIG                 Office of Inspector General
    OTS                 Office of Thrift Supervision
    PCA                 prompt corrective action
    Peoples First       Peoples First Community Bank
    ROE                 report of examination
    TFR                 thrift financial report




                        Material Loss Review of Peoples First Community Bank Report (OIG-11-094)          Page i
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                       August 25, 2011

                       John G. Walsh
                       Acting Comptroller of the Currency

                       This report presents the results of our material loss review of the
                       failure of Peoples First Community Bank (Peoples First), of Panama
                       City, Florida, and the Office of Thrift Supervision’s (OTS)
                       supervision of the institution. We are providing the results of this
                       review for your information since the Office of the Comptroller of
                       the Currency (OCC) assumed regulatory responsibilities for thrifts
                       pursuant to P.L. 111-203. OTS closed the thrift and appointed the
                       Federal Deposit Insurance Corporation (FDIC) as receiver on
                       December 18, 2009. Section 38(k) of the Federal Deposit
                       Insurance Act mandated this review because of the magnitude of
                       the thrift’s estimated loss to the Deposit Insurance Fund. 1 As of
                       January 31, 2011, FDIC estimated that loss at $514.7 million.
                       FDIC also estimated that Peoples First’s failure resulted in a loss of
                       $6.3 million to the Transaction Account Guarantee Program. 2

                       The objectives of our review were to determine the causes of the
                       thrift’s failure; assess OTS’s supervision of the thrift, including
                       implementation of the prompt corrective action (PCA) provisions of
                       section 38; and make recommendations for preventing any such
                       loss in the future. To accomplish these objectives, we reviewed the
                       supervisory files and interviewed key officials involved in the
                       regulatory enforcement matters. We also interviewed personnel at

1
  At the time of the failure, section 38(k) defined a loss as material if it exceeded the greater of
$25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k) defines
a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for
calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a
provision that the threshold can be raised temporarily to $75 million if certain conditions are met).
2
  Certain terms that are underlined when first used in this report, are defined in, Safety and Soundness:
Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is available on the
Treasury Office of Inspector General’s (OIG) website at http://www.treasury.gov/about/organizational-
structure/ig/Pages/by-date-2011.aspx.


                       Material Loss Review of Peoples First Community Bank Report (OIG-11-094)     Page 1
             FDIC's Division of Resolutions and Receivership. Appendix 1
             contains a more detailed description of our objectives, scope, and
             methodology. Appendix 2 contains background information on
             Peoples First and OTS supervision of the institution.

             In brief, our review found that Peoples First failed primarily because
             of (1) excessive concentrations in high-risk nonhomogeneous loans
             located in Florida and (2) inadequate credit administration. Peoples
             First’s management pursued a business model that relied on
             high-risk real estate loans to drive profitability but did not have
             adequate risk management practices in place to support this
             strategy. Regarding supervision, OTS did not (1) effectively
             implement New Directions Bulletin 06-14, Concentrations of Risk;
             (2) adequately monitor loan restrictions after issuing a cease and
             desist (C&D) order in February 2009; or (3) sufficiently monitor
             Peoples First’s use of interest reserves.

             In light of the fact that OTS functions transferred to other federal
             banking agencies on July 21, 2011, we are not making any new
             recommendations as a result of our material loss review of Peoples
             First.

             We provided OCC with a draft of this report for its review. In a
             written response, which is included as appendix 3, OCC did not
             provide specific comments on the report contents.


Causes of Peoples First Community Bank’s Failure
             Peoples First failed because of its excessive concentration in
             nonhomogeneous loans (loans secured by other than permanent
             residential property and consumer loans), including land loans that
             were geographically concentrated in Florida. In addition, Peoples
             First’s credit administration practices were inadequate in relation to
             its high-risk lending activities.

             Excessive Concentrations

             OTS defines concentration as a type of asset that exceeds
             25 percent of a thrift’s risk-based capital. As of
             December 31, 2006, and December 31, 2008, the value of
             Peoples First’s nonhomogeneous loans represented 580 percent


             Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 2
and 518 percent, respectively, of risk-based capital, and of those
loans, land loans represented 289 percent and 251 percent,
respectively, of risk-based capital. The total value of Peoples First’s
nonhomogeneous loans equaled $1 billion as of
December 31, 2006, and $988 million as of March 31, 2008.

Peoples First pursued high-risk real estate loans to drive
profitability. Its primary markets included the Florida panhandle,
Jacksonville, and Orlando. Due to the collapse of the real estate
market and economic downturn in Florida beginning in 2007,
Peoples First incurred asset quality deterioration, significant
operating losses, and severe erosion of capital. Peoples First
recorded net losses of $22.6 million in 2008 and $136 million for
the 9 months ending September 30, 2009. Nonperforming assets
increased from $45.7 million at December 31, 2007, to
$350.3 million at September 30, 2009, and total risk-based capital
decreased from 11.03 percent at September 30, 2008, to
2.55 percent at September 30, 2009.

Inadequate Credit Administration

According to the OTS examination handbook, it is an unsafe and
unsound banking practice for a savings association to lack written,
well-defined policies and procedures appropriate to the type and
complexity of its lending activity. The handbook also states that an
association should have sufficient staff with the expertise to
originate, service, and monitor its lending programs and loan
portfolio.

Peoples First did not have written, well-defined policies and
procedures in place that were appropriate for the type and
complexity of its lending activity. OTS’s report of
examination (ROE) for the March 31, 2008, examination concluded
that Peoples First’s policies, procedures, operating strategies, and
internal audits did not generally ensure that management had
conducted the affairs of the thrift in a prudent manner. Peoples
First’s underwriting policies did not include the requirement for cost
estimates on construction loans, and Peoples First did not always
obtain acceptable appraisals. During interviews, OTS examiners
stated Peoples First’s loan review function was inadequate and its
staff was not sufficiently experienced to handle the complexity and


Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 3
                      amount of loans being processed. According to an OTS internal
                      review of Peoples First’s failure, stress testing of the higher-risk
                      portfolios was not part of the risk management function and was
                      never performed in the thrift or its holding company. As a result of
                      Peoples First’s inadequate loan review function, OTS examiners
                      classified an additional $122 million in loans during the 2008
                      full-scope examination that Peoples First had not identified.

                      Due to continuing losses on high-risk land development and
                      construction loans and negative core earnings, Peoples First’s
                      capital became critically deficient. The thrift was unable to raise
                      additional capital, and negotiations with potential acquirers were
                      unsuccessful. OTS deemed Peoples First to be in an unsafe and
                      unsound condition and closed the thrift on December 18, 2009.


OTS’s Supervision of Peoples First Community Bank
                      OTS’s supervision of Peoples First did not prevent a material loss
                      to the Deposit Insurance Fund. OTS did not (1) effectively
                      implement New Directions Bulletin 06-14, Concentrations of Risk;
                      (2) adequately monitor loan restrictions after issuing a cease and
                      desist (C&D) order in February 2009; or (3) sufficiently monitor
                      Peoples First’s use of bank-funded interest reserves.

                      Table 1 summarizes the results of OTS’s full-scope safety and
                      soundness and limited-scope examinations of Peoples First from
                      2005 until the thrift’s closure. 3

          Table 1: Summary of OTS’s Examinations and Enforcement Actions for Peoples First
                                                          Examination Results
                                                                    Number of
           Date started/ Assets                          Number of corrective    Enforcement
           completed     (in billions) CAMELS rating     MRBAs      actions      actions
           6/13/2005
           9/12/2005
                              $1.5           2/222111             0            10                None
           Full-scope
           examination




3
  OTS conducted its examinations and performed off-site monitoring of Peoples First in accordance with
the timeframes prescribed in the OTS Examination Handbook.


                      Material Loss Review of Peoples First Community Bank Report (OIG-11-094)      Page 4
                                                      Examination Results
                                                                Number of
Date started/   Assets                               Number of corrective     Enforcement
completed       (in billions)   CAMELS rating        MRBAs      actions       actions
10/31/2006
2/22/2007
                    $1.7           2/222111             2            7                None
Full-scope
examination
5/22/2007
6/5/2007
Limited-            $1.7              N/A               0            0                None
scope
examination
8/13/2007
8/16/2007
Limited-            $1.7              N/A               0            0                None
scope
examination
1/15/2008
1/15/2008
Limited-            $1.8              N/A               0            0                None
scope
examination
                                                                              Troubled
3/31/2008
                                                                              condition letter,
8/29/2008
                    $1.8           4/443422             12          23        9/26/2008; C&D
Full-scope
                                                                              order,
examination
                                                                              2/17/2009
6/15/2009
7/9/2009
Limited-            $2.1        No report issued        0            0                None
scope
examination
9/30/2009
10/1/2009
                                                                              PCA directive,
Limited-            $1.9           5/554532             0            0
                                                                              11/27/2009
scope
examination
Source: OTS Examination History, ROEs, and S-Memo.

           OTS Did Not Effectively Implement New Directions Bulletin 06-14,
           Concentrations of Risk

           OTS issued its New Directions Bulletin 06-14 in November 2006 to
           address examiners’ responsibilities for identifying, evaluating, and
           reporting concentrations of risk during an examination. New
           Directions Bulletin 06-14 states that examiners must make a
           determination about the materiality of the risk the concentration


           Material Loss Review of Peoples First Community Bank Report (OIG-11-094)      Page 5
poses and the need for corrective or supervisory action and may
instruct the association to discontinue activities that lead to a
specific high-risk concentration when proper oversight and controls
are not in place.

Beginning in 2005, OTS noted in its ROEs for Peoples First that the
thrift had high-risk loan concentrations well above the average level
of its peer institutions. OTS also noted that Peoples First did not
have proper oversight and controls in place for these loan
concentrations. In the ROE for its October 31, 2006, examination,
OTS included an MRBA advising Peoples First to adopt a plan to
revise internal limits on land loans and implement a plan to have
the levels of land loans comply with internal limits. During the
examination beginning March 31, 2008, OTS noted that Peoples
First’s board-approved limits were inordinately high and requested
that management revisit the limits. It was not until the C&D order
issued in July 2009 that OTS strictly prohibited Peoples First from
originating new high-risk loans.

During interviews, OTS examiners acknowledged that Peoples First
could have been required to hold higher capital levels or reduce
high-risk loan concentration levels to reduce the thrift’s overall risk.
One examiner stated that if OTS had told the thrift that its land
loan exposure looked too high, bank management would have said
they never lost a dollar on those loans and they knew what they
were doing because they had been in business since 1986.
Another examiner stated that Peoples First would have claimed
that it would not have been able to compete with other banks if
OTS had imposed stronger lending limitations. We believe that
these were not valid reasons for deferring stronger action and that
OTS should have acted earlier and more forcefully to reduce
high-risk lending activity, as provided in New Directions Bulletin
06-14, and the loss to the Deposit Insurance Fund due to Peoples
First’s failure might have been reduced.

OTS Did Not Adequately Monitor Loan Restrictions After the
February 2009 Cease and Desist Order

OTS issued a C&D order to Peoples First on February 11, 2009,
that prohibited Peoples First from originating any high-risk loans
without prior written approval from OTS. Also, according to the


Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 6
C&D order, Peoples First could only renew, modify, or extend
existing high-risk loans provided that (1) no new funds were
advanced; (2) updates on the collateral values and borrower’s
creditworthiness were obtained and reviewed by management; and
(3) Peoples First had obtained at least one principal reduction from
the borrower in the 12 month period preceding the proposed
renewal, modification, or extension.

From the issuance of the C&D order in February 2009 until the
thrift’s failure in December 2009, OTS approved three new
high-risk loans valued at $2.2 million, and disapproved two new
loans with a total value of $475,600. Peoples First also originated
$121 million in loans between October 5 and December 12, 2009.
However, OTS was unable to provide us any information about the
specifics of these loan originations. When asked why the specifics
of these loan originations were not obtained from Peoples First, an
OTS official stated that OTS at the time was more concerned
about overall liquidity and cash flow of the thrift.

We also noted OTS approved 33 high-risk loan renewals valued at
$60.1 million, and disapproved one high-risk loan renewal valued at
$19,000. Of the 33 approved loan renewals, 15 had outdated
information on either the borrowers’ creditworthiness or the value
of the loan collateral. Also, 28 of the 33 approved loan renewals
did not have a principal reduction in the 12 month period preceding
the renewal. An OTS official stated that when these renewals were
approved, he took into consideration the circumstances of each
loan and not just the terms of the C&D, and that he believed
approving these renewals ultimately reduced the risk to the bank
and to the Deposit Insurance Fund.

OTS Did Not Sufficiently Monitor Peoples First’s Use of Interest
Reserves

The Asset Quality section of the OTS Examination Handbook states
that examiners should review a bank’s use of interest reserves. It
also alerts examiners to the fact that any deficiency in interest
reserves is a matter of serious concern and should be cause for
protective measures by the lender to control costs and secure
additional funds to cover the shortfall.




Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 7
During its full-scope examination beginning March 31, 2004, OTS
found that 75 percent of Peoples First’s land loans had interest
reserves during the initial loan terms. We found no indication that
OTS reviewed Peoples First’s use of interest reserves during the
2005 or 2006 full-scope examinations. In the full-scope
examination of Peoples First beginning March 31, 2008, OTS
found that Peoples First’s bank-funded interest reserves were
depleted and that the practice of using bank-funded interest
reserves concealed borrowers’ and/or guarantors’ capacity to repay
loans. For example, some loans that were originated in 2000 had
been renewed five times or more using bank-funded interest
reserves to keep the loans current. The borrowers’ cash flow
problems were not readily apparent because payments on the loans
were made with additional bank funds. In its ROE for this
examination, OTS stated that management should tighten lending
standards for new loans and loan renewals for land development
and raw land loans where additional interest reserves were being
considered as part of the original or renewal process.

When asked if OTS monitored Peoples First’s use of interest
reserves, an examiner stated that he was not aware of any active
monitoring of interest reserves and that the establishment of such
reserves for development and construction loans was an
established practice and was permitted, presuming management
was not using such reserves to cover up any inability of the
borrower or the project to complete repayment. We believe that
OTS should have more closely monitored Peoples First’s extensive
use of bank-funded interest reserves so that the problems identified
in the 2008 examination could have been detected and action
taken earlier.

OTS’s Internal Failed Bank Review Identified Area Needing
Improvement

In accordance with its policy, OTS performed an internal failed
bank review to determine the causes of Peoples First’s failure,
evaluate the supervision exercised by OTS, and provide
recommendations based on the findings of the review. The OTS
review, completed in August 2010, determined that Peoples First’s
failure resulted from the size of its investment in higher-risk loans




Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 8
                        and the losses sustained in those portfolios when the real estate
                        market collapsed in Florida during 2007/2008.

                        The review identified one area where supervision should have been
                        more effective. According to the report, OTS could have taken
                        earlier and more forceful efforts to restrain and reduce the
                        higher-risk lending activity and/or to secure higher capital levels.
                        However, the review noted that OTS actions taken at the time
                        were appropriate and the later collapse of the Florida real estate
                        market was unprecedented.

                        The internal review did not make any new recommendations to
                        OTS. According to the report, procedures to control concentration
                        risk are detailed in previous failed bank reviews, and are
                        appropriately addressed with CEO Letter 311, Risk Management:
                        Asset and Liability Concentrations, 4 and New Directions 06-14.

                        Based on our review of the examination records and reports and
                        interviews with OTS staff, we affirm OTS’s internal finding with
                        respect that earlier and more forceful supervisory efforts were
                        warranted. In addition, we determined that OTS should have
                        (1) more effectively implemented New Directions 06-14, (2) more
                        adequately monitored loan restrictions contained in the
                        February 2009 C&D order, and (3) more sufficiently monitored
                        Peoples First’s use of interest reserves.

                        OTS Implemented Prompt Corrective Action in Accordance With
                        Requirements

                        We concluded that OTS used its authority under PCA in
                        accordance with PCA requirements. After its March 31, 2008,
                        examination of Peoples First and the downgrade of the thrift’s
                        CAMELS composite rating from 2 to 4, OTS sent a troubled
                        condition letter to Peoples First on September 26, 2008. After
                        Peoples First reported that its capital level was significantly
                        undercapitalized in its Thrift Financial Report (TFR) for
                        June 30, 2009, OTS notified Peoples First in writing on
                        August 3, 2009, of its significantly undercapitalized status,
                        relevant PCA restrictions, and requirement to file a Capital


4
    Issued on July 9, 2009.


                        Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 9
                       Restoration Plan by August 28, 2009. 5 Peoples First submitted the
                       Capital Restoration Plan, which was later rejected by OTS. In its
                       TFR for September 30, 2009, Peoples First’s capital level fell to
                       critically undercapitalized. On November 27, 2009, OTS issued a
                       PCA directive and Peoples First’s Board consented to the
                       appointment of a conservator or receiver. We considered that
                       action timely as well. The PCA taken by OTS ultimately was
                       unsuccessful in preventing the thrift’s failure or a material loss to
                       the Deposit Insurance Fund.

                                               * * * * *
                       We appreciate the courtesies and cooperation provided to our staff
                       during the audit. If you wish to discuss the report, you may
                       contact me at (202) 927-0384 or Theresa Cameron, Audit
                       Manager, at (202) 927-1011. Major contributors to this report are
                       listed in appendix 4.



                       /s/
                       Jeffrey Dye
                       Audit Director




5
 Peoples First’s TFR for March 31, 2009, reported a capital level that met the regulatory definition of
adequately capitalized. Prior to that TFR, the thrift maintained capital levels that met the regulatory
definition of well capitalized during the period covered by our review.


                       Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 10
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted a material loss review of Peoples First Community
                        Bank (Peoples First) of Panama City, Florida, in response to our
                        mandate under section 38(k) of the Federal Deposit Insurance Act. 6
                        This section provides that if the Deposit Insurance Fund incurs a
                        material loss with respect to an insured depository institution, the
                        inspector general for the appropriate federal banking agency is to
                        prepare a report to the agency that

                        •    ascertains why the institution’s problems resulted in a material
                             loss to the insurance fund;
                        •    reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action (PCA) provisions
                             of section 38; and
                        •    makes recommendations for preventing any such loss in the
                             future.

                        At the time of Peoples First’s failure on December 18, 2009,
                        section 38(k) defined a loss as material if it exceeded the greater of
                        $25 million or 2 percent of the institution’s total assets. The law
                        also requires the inspector general to complete the report within
                        6 months after it becomes apparent that a material loss to the
                        Deposit Insurance Fund has been incurred. We initiated this
                        material loss review of Peoples First based on the loss estimate by
                        the Federal Deposit Insurance Corporation (FDIC), which was
                        $556.7 million at the time of closing. As of January 31, 2011,
                        FDIC estimated that the loss would be $514.7 million. FDIC also
                        estimated that the thrift’s failure resulted in a loss of $6.3 million
                        to the Transaction Account Guarantee Program.

                        Our objectives were to determine the causes of Peoples First’s
                        failure; assess the Office of Thrift Supervision’s (OTS) supervision
                        of Peoples First, including implementation of the PCA provisions of
                        section 38; and make recommendations for preventing such a loss
                        in the future. To accomplish our review, we conducted fieldwork at
                        OTS’s headquarters in Washington, D.C., and it’s Southeast
                        Regional Office, in Atlanta, Georgia. We also interviewed officials
                        of FDIC’s Division of Resolutions and Receivership. We conducted
                        our fieldwork from March 2010 through September 2010.



6
    12 U.S.C. § 1831o (k).


                        Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 11
Appendix 1
Objectives, Scope, and Methodology




To assess the adequacy of OTS’s supervision of Peoples First, we
determined (1) when OTS first identified the thrift’s safety and
soundness problems, (2) the gravity of the problems, and (3) the
supervisory response OTS took to get the thrift to correct the
problems. We also assessed whether OTS (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

•   We determined that the period covered by our audit would be
    from June 13, 2005, through the thrift’s failure on
    December 18, 2009. This period included three full-scope
    safety and soundness examinations and five limited-scope
    examinations of Peoples First.

•   We reviewed OTS’s supervisory files and records for Peoples
    First from 2005 through 2009. We analyzed examination
    reports, supporting workpapers, and related supervisory and
    enforcement correspondence. We performed these analyses to
    gain an understanding of the problems identified, the approach
    and methodology OTS used to assess the thrift’s and holding
    company’s condition, and the action used by OTS to compel
    thrift and holding company management to address deficient
    conditions. We did not conduct an independent or separate
    detailed review of the external auditor’s work or associated
    workpapers other than those incidentally available through the
    supervisory files.

•   We interviewed and discussed various aspects of the
    supervision of the thrift and holding company with OTS officials
    and examiners to obtain their perspectives on the thrift’s and
    holding company’s condition and the scope of the examinations.
    We also interviewed an FDIC examiner who was responsible for
    monitoring Peoples First for federal deposit insurance purposes.

•   We selectively reviewed Peoples First’s documents that had
    been taken by FDIC and inventoried by FDIC Division of
    Resolutions and Receivership personnel. From FDIC’s inventory
    list, we identified documents for our review that were most




Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 12
                        Appendix 1
                        Objectives, Scope, and Methodology




                            likely to shed light on the reasons for the thrift’s failure and
                            OTS’s supervision of the institution.

                        •   We assessed OTS’s actions based on its internal guidance and
                            the requirements of the Federal Deposit Insurance Act. 7

                        •   We reviewed OTS’s internal failed bank review report of Peoples
                            First, dated August 2, 2010.

                        We conducted this performance audit in accordance with generally
                        accepted government auditing standards. Those standards require
                        that we plan and perform the audit to obtain sufficient, appropriate
                        evidence to provide a reasonable basis for our findings and
                        conclusions based on our audit objectives. We believe that the
                        evidence obtained provides a reasonable basis for our findings and
                        conclusions based on our audit objectives.




7
    12 U.S.C. § 1811 et seq.


                        Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 13
                      Appendix 2
                      Background




                      Peoples First Community Bank History

                      Peoples First Community Bank (Peoples First) was originally named
                      Peoples First Financial Savings and Loan Association and opened as
                      a state-chartered institution in January 1983. It changed its name
                      to Peoples First Community Bank in July 1994 and converted to a
                      federally chartered stock institution on January 1, 1995. It was
                      wholly owned by Peoples First Properties Incorporated, a
                      nondiversified, nonpublic, unitary thrift holding company. 8 Peoples
                      First Properties Incorporated and Peoples First were controlled by
                      one family through its ownership of approximately 80 percent of
                      the holding company’s total outstanding common stock.

                      Peoples First had its home office in Panama City, Florida, and over
                      30 branches in north and central Florida. Its primary business lines
                      included the origination of land, permanent one-to-four family,
                      nonresidential mortgage and single-family construction loans.
                      Peoples First’s earnings were high for much of its existence due to
                      its higher-risk loan portfolio. However, beginning with the first
                      quarter of 2008, Peoples First reported net losses due to significant
                      provisions for loan losses from these higher-risk loans.

                      OTS Assessments Paid by Peoples First

                      OTS funded its operations in part through semiannual assessments
                      on savings associations. OTS determined each institution’s
                      assessment by adding together three components reflecting the
                      size, condition, and complexity of an institution. OTS computed the
                      size component by multiplying an institution’s total assets as
                      reported on the thrift financial report by the applicable assessment
                      rate. The condition component is imposed on institutions that have
                      a 3, 4, or 5 CAMELS composite rating. OTS imposed a complexity
                      component if (1) a thrift administered more than $1 billion in trust
                      assets; (2) the outstanding balance of assets fully or partially
                      covered by recourse obligations or direct credit substitutes
                      exceeded $ billion, or (3) the thrift serviced over $1 billion of loans
                      for others. 9 OTS calculated the complexity component by

8
 A unitary thrift holding company controls a single thrift.
9
 An institution can guaranty, purchase, or assume a recourse exposure from another organization,
which are generally referred to as direct credit substitutes.


                      Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 14
Appendix 2
Background




multiplying set rates times the amounts by which an association
exceeded each particular threshold. Table 2 shows the
assessments that Peoples First paid OTS from 2005 through 2009.

Table 2: Assessments Paid by Peoples First to OTS, 2005—2009



   Billing Period              Exam Rating      Amount Paid
   1/1/2005–6/30/2005                2             $131,441
   7/1/2005–12/31/2005               2              138,333
   1/1/2006–6/30/2006                2              145,404
   7/1/2006–12/31/2006               2              150,516
   1/1/2007–6/30/2007                2              161,432
   7/1/2007–12/31/2007               2              162,859
   1/1/2008–6/30/2008                4              171,789
   7/1/2008–12/31/2008               4              175,190
   1/1/2009–6/30/2009                4              361,772
   7/1/2009–12/31/2009               5              395,856

 Source: OTS.



Number of OTS Staff Hours Spent Examining Peoples First

Table 3 shows the number of OTS staff hours spent examining
Peoples First from 2005 to 2009.

Table 3: Number of OTS Hours Spent Examining Peoples First, 2005-2009

                                Number of
       Examination             Examination
        Start Date                  Hours
       6/13/2005                     3,382
       10/31/2006                    3,445
       5/22/2007                        15
       8/13/2007                        29
       1/15/2008                        45
       3/31/2008                     3,723
       6/15/2009                     1,125
       9/30/2009                     1,623

Source: OTS.




Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 15
Appendix 3
Management Response




Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 16
Appendix 4
Major Contributors to This Report




Theresa Cameron, Audit Manager
Michelle Littlejohn, Auditor-in-Charge
Dana Duvall, Auditor
Jacob Trewe, Auditor
Jen Ksanznak, Auditor
Fawntrella Thompson, Referencer




Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 17
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary of the Treasury
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Acting Comptroller
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

U.S. Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of Peoples First Community Bank Report (OIG-11-094)   Page 18
